NATIONAL RAILROAD PASSENGER CORPORATION
                        Office of the Inspector General




                                                OCTOBER 1, 2005 – MARCH 31, 2006


                                   Semiannual Report
                                         to Congress
Acela Regional | West Mystic, CT
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                    Semiannual Report
                                                          to Congress




                                                                                   REPORT NO. 33
                                                                OCTOBER 1, 2005 – MARCH 31, 2006
                                            NATIONAL RAILROAD PASSENGER CORPORATION
                                                 Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




April 30, 2006

Honorable David Laney
Chairman
Amtrak Board of Directors

Dear Mr. Chairman:

This report, submitted pursuant to the Inspector General Act, summarizes the more significant
audits, evaluations, and investigations for the six-month period ending March 31, 2006.

In the past six months, we have continued to work with the Board and management to identify
areas for improvement in Amtrak’s programs and operations. In particular, we have committed
to assisting the corporation in furthering its published strategic reform initiatives.

We issued 21 audit reports in the last two quarters, including performing information tech-
nology security reviews, compliance with environmental regulations, and compliance with sole
source procurement requirements. We also continued our review of Amtrak’s efforts to
strengthen internal controls around financial statement reporting, and we made additional
recommendations to the Finance department to strengthen further their control environment.

Our investigators and special agents opened 75 new cases in the past six months and closed
134 cases; 319 investigations remain active as of March 31. Amtrak and the Department of
Justice settled a long-standing contract fraud case for $24.75 million; this settlement was
achieved only through the hard work of several dedicated OIG staff and OIG counsel. We
have eight criminal and civil fraud cases pending with Federal prosecutors.

The OIG Inspections and Evaluations team has been working with senior managers to improve
Amtrak’s Acela operations and has been actively participating in the Acela Oversight
Committee. We conducted a review of the root causes for on-time performance delays, and we
have facilitated the introduction of reliability-centered maintenance for the Acela trainsets. In
addition, at your request, we have also worked with management to have them prepare a more
comprehensive fleet management plan.
Honorable David Laney
April 30, 2006
Page 2




We are continuing our review of police and security operations, and we are evaluating the progress
made by the company in responding to the recommendations included in our June 2004 RAND-led
security report. We plan to augment the capabilities of the OIG security oversight group before the
end of the fiscal year, and we have also engaged Lawrence Livermore National Laboratories to assist
us in reviewing specific vulnerabilities at major Amtrak stations.

I appreciate your and the Board’s continued support of the OIG’s oversight efforts.

Respectfully,




Fred E. Weiderhold
Inspector General
                                                                                                   Table of Contents
Inspector General Viewpoint                                                                   Inspections and Evaluations
Mid-Year Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1            Significant Inspections and Evaluations . . . . . . . . . . . . . . . . 13
Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                                                                                              Counter Terrorism and Intelligence
Amtrak Profile                                                                                Significant Counter Terrorism and Intelligence Efforts . . . . 16
Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                                                                                              Other OIG Activities
                                                                                              Coordination with Independent Public Accountants . . . . . . 17
OIG Joint Department Efforts                                                                  Self-Insured Health Care Plans . . . . . . . . . . . . . . . . . . . . . . . 17
Northeast Corridor Improvement Project . . . . . . . . . . . . . . . . 4                      Teammate Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Acela Brake Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                                                                                              Appendices
Office of Audits                                                                              1. Audit Reports Issued with Questioned Costs . . . . . . . . . 20
Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5      2. Audit Reports Issued with Funds
Unresolved Audit Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8              to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Management Responses Over Six Months Old for                                                  3. Detailed Listing of All Issued Audit Reports . . . . . . . . . 22
Which Corrective Action Has Not Been Completed . . . . . . . 8                                4. Summary of Reports to President of Amtrak
Audit Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9       Concerning Information or Assistance
                                                                                                 Unreasonably Refused or Not Provided . . . . . . . . . . . . . 23
                                                                                              5. Review of Legislation and Regulations . . . . . . . . . . . . . 24
Office of Investigations                                                                      6. Glossary of Audit Terms and Abbreviations . . . . . . . . . 25
Case Handling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Sources of Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Hotline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                                                                                              Reporting Requirements Index
                                                                                              Reporting Requirements Index . . . . . . . . . . . . . . . . . . . . . . . 26
Case Status of Investigations . . . . . . . . . . . . . . . . . . . . . . . . 10
Significant Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Funds Recovered or Discontinued . . . . . . . . . . . . . . . . . . . . 11
Efficiency and Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . 11
Classification of Cases Opened During this Period . . . . . . . 12
Prosecutive Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Revenue Protection Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                                      Inspector General Viewpoint
MID-YEAR PERFORMANCE
Amtrak completed its first two quarters, through March 31,
2006, slightly ahead of budget projections for both revenues and
expenses. Ticket-related and state support revenues were $729.6
million, $12.2 million better than budget. Operating expenses
were $1.2 billion, $14.4 million better than budget. Adjusted
losses for the company were $611.3 million, with a total favor-
able budget variance of $60.4 million. When compared to FY
2005, Amtrak was $33.8 million favorable to the prior year.
Total ridership was 11.56 million, slightly better than projected,
with 26.2 cents revenue per passenger mile.
Amtrak’s system-wide on-time performance continued to suffer,
primarily as the result of poor support from the underlying
freight carriers, slipping from 72.2 percent in FY 2005 to 67.9
percent YTD for FY 2006. Some train performance reached all-
                                                                      Vermonter | Farmland in Vermont
time lows, with Amtrak’s popular Auto Train service achieving
only a 17.9 percent on-time performance, and in the West,
Amtrak’s Coast Starlight service posting an even worse perfor-        Officer, David L. Gunn, left the company, and an interim CEO
mance of 2.6 percent. Recent on-time performance posted by            was appointed. Major organizational changes were, appropriately,
Amtrak’s Acela trains was better, with Amtrak achieving its 90        placed on hold while the search for a new CEO is underway. The
percent on-time performance goals in March 2006. Both areas           OIG believes there are opportunities to improve the organizational
of on-time performance are important for the company to               structure and to reallocate resources more effectively. A set of
manage. However, Amtrak has far less control over the freight         recommendations for an improved organizational structure and re-
carriers’ dispatching, and no say-so in its day-to-day operations.    alignment will be made in the next few months.
Amtrak must rely upon its individual railroad contracts with the
carriers and upon the requirement that passenger trains should        Regarding the second initiative, providing regular performance
receive some priority over freight.                                   reporting, Amtrak has been publishing its Monthly Performance
                                                                      Reports, containing voluminous performance data, and providing
                                                                      copies to the Federal Railroad Administration and making the
MANAGEMENT CHALLENGES                                                 reports available on its company web site. From an OIG perspec-
In April 2005, as a part of Amtrak’s FY 2006 Grant and                tive, the frequency and volume of data reported are excessive and,
Legislative Request, Amtrak’s Board of Directors set out a            to the extent that there may be information that places Amtrak at
Strategic Reform Plan for the company, outlining various initia-      a competitive disadvantage, the reporting requirements should be
tives for structural, operating, and legislative reforms. Almost      re-examined. Additionally, as the GAO noted in its December
one year later, some movement towards those reforms has been          2005 report (GAO-06-145), “Systemic Problems Require Actions
made, but there is still considerable work ahead in defining          to Improve Efficiency, Effectiveness, and Accountability,”
Amtrak’s progress in its strategic planning and the value and         Amtrak needs to report “outcomes” in its efforts to improve its
contributions of its business operations.                             business operations, not just outputs and results.

As a part of the Board’s structural initiatives, the Board recom-     Amtrak has not adopted a ‘zero-based’ budgeting approach to its
mended to management that it cut layers of management,                business lines as of this reporting period. The OIG has observed
provide regular performance reporting, institute zero-based           that Amtrak has long followed a more traditional ‘priority incre-
budgeting, and focus the company on ‘core’ operations and             mental budgeting’ model. This model builds a budget based
rebuilding of assets.                                                 upon current year revenues and expenses, and then projects
                                                                      incremental changes based on economic conditions (inflation
With respect to the first initiative, calling for cutting layers of   added to the expense base), market demand forecasts (drivers for
management, Amtrak’s basic organization has not been signifi-         the revenue base), and anticipated federal appropriations
cantly modified over the past year, and headcount has remained        (servicing much of the capital program needs).
relatively flat. In November 2005, Amtrak’s Chief Executive

                                                                                                        Inspector General Viewpoint   1
Amtrak has been very busy over the past several years making
substantial investments in its infrastructure, particularly for its
Northeast Corridor rail assets. Year-to-date for the six-month
period, Amtrak has spent over $258 million in general capital,
with $150 million spent by Amtrak Engineering ($65 million for
track/interlocking, $26 million for the New York Fire, Life,
Safety project, $12 million for signal work, $12 million for
bridges, and the balance for other projects), and $88 million
spent by the Mechanical Department for rolling stock ($29
million for the bi-level Superliner refurbishments, $26 million
for the Amfleet equipment, and $22 million for locomotive
repair and overhauls). While the OIG agrees that many of the
capital investments appear reasonable and necessary, we are
encouraging the company to use more asset-based metrics in its
performance analyses. We have not yet seen the company
demonstrate in its longer term planning the expected return on
investment benefits from the ‘state-of-good’ repair program. We        Empire Builder | Glacier National Park, MT
agree with the GAO that Amtrak needs to link its considerable
capital spending programs to a better documented and justified
                                                                       management on its other recommendations to consider the
strategic plan.
                                                                       appropriateness of maintenance outsourcing.
Amtrak has invested resources and made some progress on its
                                                                       Amtrak has fallen behind in meeting its load factor goals through
operating initiatives, but these efforts have not yet reached to the
                                                                       March 2006. The projected average load factor goal through
bottom line. Amtrak has instituted a serious review of its food
                                                                       March 2006 was 53.2 percent, but the actual average load factor
and beverage operations and has begun making changes to its
                                                                       was 45.2 percent. Total passenger miles were slightly higher
Northeast Corridor and long-distance dining and lounge
                                                                       than projected. The OIG has commented in the past on the need
services. Beginning in January 2006, Amtrak extended its modi-
                                                                       for Amtrak to become more aggressive in its marketing, espe-
fied dining services pilot to four of Amtrak’s sixteen
                                                                       cially with respect to international sales. Amtrak has not yet
long-distance train routes. This program reduces on-board
                                                                       leveraged its revenue and yield management programs, and more
staffing needs through position consolidation and implements a
                                                                       should be done in these areas.
modified, more standardized menu, emphasizing more pre-
prepared main courses. Staffing levels on Acela Club services          In March 2006, Amtrak submitted its Grant and Legislative
were also modified to match ridership and use of the First Class       Request for FY 2007. The reauthorization issues identified by
Car. The OIG considers these efforts a good first step to reigning     the company include the need to establish a stable, multi-year
in food and beverage expenses, but we continue to encourage the        source for capital programs, and the need to set a framework by
company to pursue contracting out options where feasible as            which competition can be introduced into intercity rail passenger
well as seeking other productivity improvements.                       services. The company desires a federal capital match program
                                                                       that resembles programs used for other transportation modes
The OIG has encouraged Amtrak to consider greater use of
                                                                       (aviation, transit), and recommends starting with an 80-20
outsourcing and facility consolidation, especially with respect to
                                                                       matching program for participating states and localities. While
the servicing, maintenance, and overhaul of its rolling stock and
                                                                       there is a pending Senate passed reauthorization bill (S. 1516), it
major equipment components. Last year, we recommended that
                                                                       is not certain that this bill will be advanced before the end of the
Amtrak consider consolidating its maintenance activities for its
                                                                       current Congressional session.
primary locomotive, the P-42, from five maintenance locations
to possibly two locations. We also recommended that Amtrak             The OIG not only supports the company’s legislative requests,
consider what other large Class I railroads have done to               but we believe there are important provisions within S. 1516 that
outsource locomotive maintenance to the equipment manufac-             would benefit Amtrak and add long term stability for continued
turers. By the end of the reporting period, Amtrak management          Amtrak operations and smart growth.
has signaled a limited consolidation of maintenance work for the
P-42 fleet to Chicago and removed work from two other loca-
tions. This is a good first step. The OIG will work closely with

2   Inspector General Viewpoint
                                                                                       Amtrak Profile
BACKGROUND                                                              operations; reviewing certain procurements and material acquisi-
                                                                        tions for appropriateness of cost and pricing and compliance
Amtrak is incorporated under the District of Columbia Business          with applicable grant and/or contract terms and conditions; and,
Corporation Act in accordance with the provisions of the Rail           monitoring compliance with laws and regulations.
Passenger Service Act of 1970 (Public Law 91-518). Amtrak is
governed by a seven-member Board of Directors appointed under           The Investigations Unit is responsible for investigating various
the Amtrak Reform and Accountability Act (December 2, 1997).            types of fraud and abuse particularly allegations of financial
The company operates as a for-profit corporation providing inter-       wrongdoings, kickbacks, construction irregularities, bribery, and
city rail passenger service as its principal business.                  false claims; performing reviews of Amtrak’s safety and security
                                                                        programs; recommending to the company better internal controls
Amtrak operates more than 260 daily inter-city trains over 23,000       to prevent fraud and abuse; and, reporting violations of law to
route miles serving over 500 communities in every state but two         the Attorney General and prosecutors. The Unit is also charged
in the contiguous United States. Of this route system, Amtrak           with reviewing and safeguarding Amtrak’s cash and credit card
owns the right-of-way of more than 2,600 track miles in the             purchases for transportation and food services on board Amtrak
Northeast Corridor. This includes Washington, DC-New York               trains.
City-Boston, Philadelphia-Harrisburg, New Haven-Springfield,
CT and short segments in Michigan and New York. Amtrak also             The Inspections and Evaluations Unit is a hybrid unit within
operates rail services in several areas around the country under        the OIG whose staff have specialized skills in engineering,
contract with state and regional commuter authorities.                  safety, labor/employee relations, mechanical maintenance opera-
                                                                        tions, strategic planning, and finance. This group conducts
Amtrak owns many of its passenger stations and also leases other        targeted inspections of Amtrak programs, providing assistance to
stations from the freight railroads. It owns most of the mainte-        managers in their efforts to determine the feasibility of new
nance and repair facilities for its fleet of about 2,000 cars and       initiatives and the effectiveness of existing operating methodolo-
locomotives. Amtrak employs 20,000 persons, of which about              gies. The evaluative process they utilize, whether requested or
18,000 are agreement-covered employees. These employees                 mandated, consists of independent studies and analytical reviews
work in on-board services, maintenance of way, station and              that often serve as the cornerstone for strategies to improve
reservations services, and other support areas. Outside the             program cost efficiency and effectiveness, management, and the
Northeast Corridor (NEC), Amtrak contracts with freight rail-           overall quality of service delivery throughout Amtrak.
roads for the right to operate over their tracks. On their property,
the host freight railroads are responsible for the condition of their   The Intelligence and Counter-Terrorism Unit is responsible
tracks and for the coordination of all railroad traffic.                for facilitating, and overseeing projects and tasks pertaining to
                                                                        rail security, counter-terrorism and intelligence related to the
                                                                        country’s war on terrorism. The unit is involved in working with
OIG PROFILE                                                             external agencies to provide focus on the importance of rail secu-
Amtrak’s OIG was formed under the provisions of the Inspector           rity and the need for an integrated approach for addressing the
General Act Amendment of 1988. The OIG is an independent                many challenges in securing an open-architecture rail passenger
entity within Amtrak whose mission is to detect fraud, waste, and       system.
misconduct involving Amtrak’s programs and personnel and to             OIG Legal Counsel is responsible for providing legal advice,
promote economy and efficiency in Amtrak operations. The OIG            counsel and training to all of the aforementioned units.
investigates allegations of violations of criminal and civil law,       Moreover, Legal Counsel represents the Inspector General and
regulations, and ethical standards arising from the conduct of          his employees in litigation or legal matters, specifically related
Amtrak employees in performing their work. The OIG also audits          to OIG responsibilities, or coordinates such representation on
and evaluates Amtrak operations and assists management in               behalf of the IG and his employees.
promoting integrity, economy, efficiency, and effectiveness. The
OIG consists of the following units with specific responsibilities:     OIG personnel are located in eight offices in Washington, DC
                                                                        (Headquarters), Baltimore, Wilmington, Philadelphia, New
The Audit Unit is responsible for conducting independent                York, Boston, Chicago, and Los Angeles.
reviews of Amtrak’s internal controls; overseeing and assisting
audits of Amtrak’s financial statements; reviewing information
technology programs and information security; providing
accounting counsel to, and oversight of, Finance Department

                                                                                                                       Amtrak Profile   3
OIG Joint Department Efforts
As set forth below, during this period, the OIG – Investigations,
Inspections and Evaluations and Audit – completed a joint inves-
tigation project and continues work on a previously reported
project. Highlights of these efforts are discussed below:

NORTHEAST CORRIDOR IMPROVEMENT PROJECT
CONTRACT-RELATED FRAUD –
$24.75 MILLION SETTLEMENT
In conjunction with Amtrak’s Northeast Corridor Improvement
Project, a contractor was awarded a federally funded multi-year
contract to electrify Amtrak’s Northeast Corridor rail lines
between New Haven, Connecticut and Boston, Massachusetts.
The OIG, in conjunction with the United States Department of
Justice, conducted an investigation spanning several years,
millions of documents, and utilizing many different personnel
and expertise within the office. The investigation uncovered
evidence that Amtrak was defrauded by more than $50 million in
connection with the fixed-price contract of $305 million; the
total contract ultimately grew to exceed $485 million. The
OIG’s investigation began with a 1995 tip and was supplemented
in 1999 when a “whistleblower” who had formerly been
employed by the contractor on the project, filed suit under the
                                                                     Coast Starlight | North of Grover Beach, CA
False Claims Act in the United States District Court for
Connecticut. The “whistleblower” alleged that the defendants
had defrauded Amtrak by more than $10 million by filing claims       determine the cause of the cracks, possible prior knowledge of
for payment known to be false and supporting false certifica-        the dangerous condition by the primary contractors or others
tions. The OIG’s lengthy, substantial efforts to unravel the         involved, who designed, built and maintained the Acela trains,
complex fraudulent schemes helped the Department of Justice in       and why inspections and maintenance by the prime contractors
negotiating a settlement of $24.75 million. The OIG did not          failed to discover and remedy the dangerous condition. The
agree to the final settlement amount, but the settlement was         OIG’s investigation thus far, indicates that certain vendors/sub-
approved by Amtrak management.                                       contractors learned of the cracked discs at least one month prior
                                                                     to the April discovery, but apparently, did not disclose the
ACELA BRAKE INVESTIGATION                                            discovery to Amtrak. OIG has issued ten (10) subpoenas in its
                                                                     investigation and has received production from seven (7) entities
As reported in the previous semiannual, the OIG continues its
                                                                     and has filed suit in the District Court for the District of
investigation of the Acela brake cracks. In April 2005, cracks
                                                                     Columbia to compel compliance with subpoenas for the
were discovered in 300 out of 1,440 disc brake rotors of the 20
                                                                     remaining three (3) entities.
Acela train sets. Although any immediate safety concerns about
the Acela trains have been eliminated, there are still significant
issues to be resolved. The OIG became involved from the outset
and continued to be involved with the ongoing investigation to




4   OIG Joint Department Efforts
                                                                                  Office of Audits
SIGNIFICANT AUDITS                                                   Amtrak Finance – Progress Addressing Internal Control
                                                                     Weaknesses
                                                                     Report #108-2004 – Issued 10/28/2005
INTERNAL OPERATIONS REVIEWS
Emergency Exchange Voucher Review – Martinez, CA                     In response to KPMG recommendations in the FY01 financial
Report #502-2006 – Issued 12/15/2005                                 statement report, Amtrak management developed and began
                                                                     implementing a corrective action plan. As part of the OIG over-
Emergency Exchange Voucher Review – Sacramento, CA                   sight, we reviewed the current status of Amtrak’s progress in
Report #501-2006 – Issued 2/03/2006                                  implementing the corrective action plan and issued an informa-
Due to a higher than normal dollar value of Emergency                tional status report to management in which no formal response
Exchange Voucher (EEV) transactions processed by the                 was required.
Martinez and Sacramento ticket office during the period April        Our review indicated that Amtrak has satisfactorily addressed a
2005-September 2005, the OIG performed special reviews of            number of issues identified by the external auditors. However,
selected Emergency Exchange Voucher (EEV) transactions to            some items were not yet fully resolved either because implemen-
determine whether they were processed in accordance with             tation was continuing or because recently implemented controls
established company procedures.                                      would require ongoing monitoring to stabilize the new
EEVs are used locally to assist passengers who are seriously         processes. The areas requiring continuing management attention
inconvenienced due to a service disruption or causal event. Our      included: Capital Expenditures, Three Way Match, Accounting
examination determined that the larger EEV expenditures were         for Significant Transactions, Legal Accruals, Depreciation,
incurred primarily due to connecting services from other train       Disposals-Retirements-Replacements of Assets, Accounting for
and bus operations. The OIG recommended, and management              Leases, Physical Inventory of Amtrak Fleet, and Deferred
agreed, that formal agreements with commercial transportation        Revenue Liability.
services should be considered to reduce costs; and that supple-      Environmental Audit Review – Internal Processes Need
mentary instructions on the EEV process be issued.                   Improvement
Amtrak Non-Rolling Stock Equipment Accountability –                  Report #208-2006 – Issued 3/28/2006
Internal Control Weaknesses Identified                               We completed a limited scope review of the internal process and
Report #302-2005 – Issued 2/13/2006                                  procedures followed in an internal environmental audit
We reviewed internal controls over Amtrak’s non-rolling stock        conducted at Amtrak’s Bear Mechanical Facility located in Bear,
equipment and concluded that internal controls need to be            Delaware. Our review disclosed that inaccurate information was
strengthened. Current procedures do not provide reasonable           reported to the Environmental Protection Agency regarding
assurance that equipment is properly accounted for or safe-          corrective action taken. Training records were not reported to
guarded; inventory records were found to be materially               Amtrak’s Human Resources Department, and there was inade-
inaccurate; and, many pieces of equipment did not have Amtrak        quate documentation of audit findings and follow up.
numbers assigned. We also noted that periodic inventories are        Management agreed with the findings and stated that they have
not required, equipment property custodians are not assigned;        begun implementing corrective actions.
and the Amtrak Equipment Manager is not properly placed in the
organization to provide full accountability and authority required
to properly account for equipment.
The OIG recommended, and management agreed that a defini-
tive policy to enforce procedures to properly account for and
protect Amtrak equipment should be established for the purchase
and placement of equipment into inventory and that a “wall-to-
wall” inventory of all existing equipment should be performed
matching the Purchasing Department and the Equipment
Manager’s inventory records.

                                                                     Amtrak Station | San Antonio, TX



                                                                                                                Office of Audits   5
INFORMATION TECHNOLOGY                                               tions and technology infrastructure are now centralized. The
                                                                     ability to remotely access these resources and the various poten-
eTrax Application Review – Process and System Control
                                                                     tial entry points from Intranet and Internet increase the potential
Weaknesses Found
                                                                     for security breaches and threats to availability, integrity, and
Report #104-2004
                                                                     confidentiality of Amtrak’s critical and proprietary business
As reported in a previous semiannual report, the OIG has             information. Limited technical resources, software with security
continued its review of eTrax applications. Amtrak imple-            weaknesses, widely available information on how to exploit
mented eTrax applications for processing travel and expense          security weaknesses, and an increasingly complex technology
reports, payment requests, non-inventory requisitions, procure-      environment all contribute to increase security risks.
ment card transactions, and several electronic forms in late 2002.
                                                                     The OIG’s review tested whether an effective system of security
The critical functionalities provided by this application are the
                                                                     controls has been established to protect the corporate informa-
electronic routing, authorization and approval using organiza-
                                                                     tion resources. Based on the fieldwork completed thus far,
tional hierarchy and business rules; and economies of scale
                                                                     violations of Amtrak’s computer and security policies as well as
achieved by aggregating purchases and negotiating volume
                                                                     significant control issues were noted. A detailed final report will
discounts with vendors. About 106,000 monetary transactions
                                                                     be issued in the near future.
worth $504 million were processed through eTrax in FY2004.
Currently, 4,070 users have access to this application.
                                                                     PROCUREMENT AUDITS
Our primary objectives were to evaluate whether adequate appli-
                                                                     Price for Repair of Locomotive Main Transformers was
cation, data integrity and general IT controls along with
                                                                     Unsupported
appropriate Amtrak policies were implemented in eTrax. While
                                                                     Report #217-2004 – Issued 3/13/2006
the new system has helped reduce paper processing and potential
for errors, fraud, delays, and inappropriate approvals, we found     We completed an audit of a contractor’s cost proposal to repair
weaknesses in internal controls, administration and the computer     AEM-7 DC locomotive main transformers and identified
network environment that require management attention.               $187,441 of questioned cost due to lack of detailed supporting
Management agreed with most of our findings and recommenda-          documentation for the proposed labor hours. Management will
tions, and has either already implemented or are in process of       attempt to obtain an independent technical opinion of the proposed
implementing audit recommendations.                                  labor hours. If a technical report is received, we will perform addi-
                                                                     tional audit procedures and issue a supplemental report.
Information Technology Security Review
Project #107-2004                                                    Audit Questioned $201,401 of the Contractor’s Cost
                                                                     Proposal
Due to the reorganization and consolidation of the Strategic
                                                                     Report #205-2005 – Issued 1/06/2006
Business Units in the last few years, more critical business func-
                                                                     We completed a post award audit of a contractor’s cost proposal
                                                                     to install cable inside Union Tunnel, Baltimore, Maryland. We
                                                                     questioned $201,401 of the cost proposal due to numerous
                                                                     differences between the cost proposal and actual costs. The
                                                                     contractor agreed with the OIG findings and executed a contract
                                                                     modification for the reduction in contract value.
                                                                     Termination Proposal Related to a Superliner I Overhaul
                                                                     Program – $63,184 in Questioned Costs for Settlement
                                                                     Proposal Report #219-2005 – Issued 1/05/2006
                                                                     A contract was issued for a Superliner I overhaul program at
                                                                     Beech Grove, Indiana. The contract was terminated by Amtrak
                                                                     due to the contractor’s failure to perform its obligations in a
                                                                     timely and satisfactorily manner under the contract. According
                                                                     to the terms of the termination letter, Amtrak planned to pay the
                                                                     contractor for its engineering costs and for the net cost of mate-
Multi-Model Transportation Center | Meridian, MS
                                                                     rials supplied based on the results of the audit and a technical

6    Office of Audits
opinion on the quality and usefulness of the materials. We ques-    INVENTORY
tioned $63,184 of the termination proposal based on our review
                                                                    Annual Maintenance of Way Inventory – Significant
and technical report. We will continue to monitor.
                                                                    Increase in Inventory Value
Food and Beverage Contract Review of Contractor’s                   Report #223-2005 – Issued 1/05/2006
General and Administrative (G&A) Expenses –
                                                                    At the request of Amtrak’s Procurement and Materials
Questioned Cost in excess of $700,000
                                                                    Management Department, the OIG observed the annual mainte-
Report #225-2005 – Issued 2/06/2006
                                                                    nance of way physical inventory conducted by the Material
We completed a limited scope review of a food and beverage          Control and Engineering Departments. A significant increase in
contractor’s overhead rates for calendar year 2005. The             inventory value, from $24 million to $40.6 million (69%) between
contractor projected $4,474,313 for G&A expenses for calendar       October 1, 2004 and September 30, 2005, was noted, and we
year 2005. We questioned $544,068 based on disallowances            recommended tighter control over purchases and revised inven-
under the FARs. The contractor also failed to provide               tory purchasing procedures to achieve a capital store turnover ratio
supporting documentation for $173,420 covering pension, vaca-       of four. Management stated that they review the status of capital
tion and holiday costs. Due to lack of access to the contractor’s   purchase orders as to delivery schedules and requirement dates
home office records (parent company located in Switzerland),        and work closely with the Procurement and Materials
we were unable to determine the reasonableness of home office       Management on planning for capital project purchases. However,
cost allocations approximating $1 million; therefore, we did not    management stated that inventory levels can fluctuate from year to
express an opinion regarding those costs.                           year due to the uncertain funding process, budget reductions,
                                                                    rescheduling of projects due to force availability caused by mate-
Kiewit Pacific Company – Oakland Maintenance Facility               rial delivery delays and long lead material times combined with
$329,753 in Questioned Costs                                        uncertain delivery dates. We will continue to monitor.
Report #502-2005 – Issued 12/21/2005
At Procurement’s request, OIG reviewed a Contract                   RAILROAD AUDITS
Modification awarded to Kiewit Pacific Company (the                 CPR/SOO – On-Time Performance Incentives Audit
Contractor) for the construction of a roof over the Service and     $111,004 Excess Billings Identified
Inspection Facility and track at Amtrak’s Oakland Maintenance       Report #401-2005 – Issued 3/27/2006
Facility in West Oakland, CA. The contract change was for a
firm fixed price of $2.96 million, subject to downward revision     Effective April 16, 1971, The National Railroad Passenger
based upon an Amtrak audit. The audit identified $329,753 – 11      Corporation (Amtrak) entered into an Agreement with the
percent of the total proposal - in questioned costs primarily       Canadian Pacific Railway (CPR), successor of the SOO Line
related to the direct and indirect labor, subcontractor work,       Railroad, and the Chicago, Milwaukee, St. Paul, and Pacific
equipment costs, and associated overhead and profit additives.      Railroad Companies, for intercity rail passenger operations on
                                                                    tracks and properties owned by CPR. Under the agreement
We recommended that the questioned costs be recovered in            provisions, the CPR bills Amtrak each month for specific
accordance with the terms of the contract. Management agreed        services and facilities for intercity rail passenger operations. The
to utilize the reported audit findings in its attempt to reach a    OIG reviewed 100 percent of the billings for on-time-perfor-
negotiated settlement with the Contractor who offered to settle     mance incentives for the period January 2001 through December
for $154,058 or 47% of the total questioned costs. The OIG          2001 to determine the accuracy, reasonableness, and validity of
reviewed the Contractor’s explanations and proposed dollar          the charges. Our review found $111,004 in excessive and unsup-
adjustments, and advised Procurement management that                ported billing for on-time performance. CPR representatives
Kiewit’s rationale was not consistent with the contract provi-      agreed with this finding and we recommended that management
sions for downward pricing. Procurement is continuing to            initiate a final settlement letter and that monies due Amtrak be
pursue a final settlement, which is expected to be completed        collected. Management has not yet responded to this report.
within the next reporting period.




                                                                                                                   Office of Audits   7
METRA Billing Audit – $50,075 in Excess Billing and
Unnecessary Costs Identified ($23,007 Excess Billings
                                                                     MANAGEMENT RESPONSES OVER
Identified – $27,068 Unnecessary Costs)                              180 DAYS OLD FOR WHICH
Report #410-2003 – Issued 3/30/2006
                                                                     CORRECTIVE ACTION HAS NOT BEEN
Effective May 1, 1996 the National Railroad Passenger
Corporation (Amtrak) entered into an agreement with the
                                                                     COMPLETED
Commuter Rail Division of the Regional Transportation                (Including Date of Management Response)
Authority, i.e., Northeast Illinois Regional Commuter Railroad       The following items were reported in previous semiannual
Corporation (METRA).                                                 reports. As of this reporting period, there are no significant
The OIG reviewed all billings from April 1997 through                developments to report.
September 2003 to determine whether all claims were properly         Delaware Car ACSES Installation Bid Review
supported in compliance with the contract.                           Report #225-2002 – Response 6/19/2003
We questioned costs of $11,167 for prior period adjustments and      Corrective Action Not Yet Implemented
$11,840 for rates that were not adjusted in accordance with the
agreement, totaling $23,007. METRA agreed and issued separate        Reimbursable Work Trains
checks in settlement of these findings. We also identified $27,068   Report #212-2003 – Response 10/28/2003
in unnecessary costs to Amtrak for the Glenview station parking
                                                                     Agreed to Actions in Progress
spaces not utilized, which are funds that could have been put to
better use by Amtrak. We recommended and management agreed           Parsons-Jenny Joint Venture
that the allotment of parking spaces be reduced or eliminated. The   Report #201-2004 – Response 5/14/2004
reserve parking spaces was reduced from twelve to four.
                                                                     Questioned Costs Not Yet Resolved
In addition, we identified internal control issues that will be
reviewed in future audits. We recommended that management            Blanket Purchase Order Sole Source Compliance Review
prepare the necessary settlement letter to close the audit period.   Report #206-2004 – Response 3/25/2004
                                                                     Corrective Actions in Progress
UNRESOLVED AUDIT ISSUES                                              Audit Questioned $4 million of Commissary Services
Appendices 1 and 2 show the status of management decisions on        Contract Costs
audit recommendations and dollar values of questioned costs,         Report #218-2004 – Response 7/16/2004
unsupported cost, and funds to be put to better use.                 Corrective Action Not Yet Completed
Section 5(a)(10) of the Inspector General Act of 1978 as             Southern Pacific Central Line
amended requires “a summary of each audit report issued before       Report #01-506 – Response 9/04/2001
the commencement of the reporting period for which no manage-        Report #01-507 – Response 9/04/2001
ment decision has been made by the end of the reporting period.      Report #01-508 – Response 10/12/2001
. .” Such reports are shown in Appendix 1 and 2. Section             Report #01-509 – Response 10/12/2001
5(a)(11) requires “a description and explanation of the reasons
for any significant revised management decision made during          Questioned Costs Not Yet Resolved
the reporting period.” There were none during this reporting
period. Section 5(a)(12) requires “information concerning any
significant management decision with which the Inspector
General is in disagreement.” Again, no such decisions were
made during this reporting period.”




8   Office of Audits
The following are either new items within this category or items
that have been previously reported and additional information            AUDIT STATISTICS
has been reported.
                                                                         Status of Audit Projects
Capital Spare Parts for High Speed Trainsets and
Locomotives –                                                            Audits in progress at 10/1/05                                60
Questioned Costs Not Yet Resolved                                        Audit projects postponed or cancelled                        2
Report #218-2001 – Response 5/21/2003                                    Audit projects started                                       18
We previously reported that the OIG identified questioned costs          Audit reports issued                                         21
of $1,223,897. Management subsequently recovered $425,992                Audit projects in progress 3/31/06                           55
of the questioned cost through withholding payment for goods
received. Management then developed a revised negotiating                Audit Findings
strategy to be consistent with a recent Alstom audit and a negoti-
ated 12 percent markup. Management decided to allow the same             Questioned costs                                 $1,059,511
12 percent markup to each Consortium member associated with              Unsupported costs                                            $0
the subject audit, thus reducing the amount of the questioned            Funds to be put to better use                       $27,068
costs to $599,108. The remaining balance to be collected would
                                                                         Total                                            $1,086,579
be $173,116 and would be withheld against future payments; but
would not be addressed until all issues related to the March 16,
2004 global settlement are resolved.
                                                                     agreed upon costs for the operation of a high speed corridor in
Subsequently, we verified additional documentation from the          New York that includes the points from Poughkeepsie to
Consortium regarding two questionable parts as reasonable. As        Hoffmans. The parties agreed to a negotiated amount of
a result, management reached a settlement that revised the           $176,767, and credited Amtrak with $23,767. The remaining
remaining cost questioned to $167,058, which the Consortium          balance of $153,658 is still outstanding pending the final
could not substantiate and allowed a 14 percent markup. As a         wording of a settlement agreement, and possibly, agreement on
result, Amtrak will owe the remaining balance of what was            other audit issues. We will continue to monitor.
previous withheld totaling $258,934. We are awaiting confirma-
tion from management to verify the payment to the Consortium.        eTrax Payment Requests – Agreed to Actions in Progress
We will continue to monitor management’s action on this issue.       Report #202-2004 – Response 1/14/2005
                                                                     Report #201-2005 – Response 5/18/2005
Amtrak’s Overtime Expenses – Internal Controls Issues
Not Yet Resolved                                                     ■    Report #202-2004 was performed to determine the level of
Report #205-2003 – Response 4/20/2005                                     compliance with Amtrak’s policies and procedures for
                                                                          payment requests processed through the eTrax system in
Amtrak’s management issued a response addressing the OIG                  fiscal year 2003. The OIG made several recommendations to
findings and indicated that the Finance and Planning department           address the weaknesses in internal controls, improve proce-
management will ensure proper training and oversight of time-             dures to clarify roles and responsibilities and monitor
keepers regarding the completion of payroll operation field               compliance. Management substantially agreed with our find-
audits. Additionally, management was expected to revise the               ings and has implemented various improvements. However,
Corporate Policy for Time Reporting and Pay Procedures by                 management has not fully responded as to recoveries of dupli-
September 2005. This Policy is still under review by Amtrak’s             cate payments addressed in the report.
Controller Office. We will continue to monitor the actions
taken.                                                               ■    Report #201-2005 The review of employee expense reports
                                                                          processed through the eTrax software system found a high
New York High Speed Line Agreement – Collection Effort                    degree of non-compliance with Amtrak’s travel policy and
Continuing                                                                eTrax instructions. Management indicated substantial agree-
Report #207-2003 – Response 5/24/2005                                     ment with our findings and has implemented various
We performed a limited review related to the CSXT usage of the            improvements, including the issuance of an updated expense
New York High Speed Line. Amtrak’s Off-Corridor Operating                 report policy. We are in the process of evaluating if manage-
Agreements and Amendments with Conrail governed certain                   ment action has achieved a significant reduction in the
                                                                          noncompliance with the travel policy.
                                                                                                                   Office of Audits        9
Office of Investigations
                                                                            The fraud OIG HOTLINE program has continued to provide
 CASE STATUS OF INVESTIGATIONS                                              employees or third parties an opportunity to report allegations of
 10/1/05 – 3/31/06                                                          fraud, waste, abuse, and other wrongdoing. Employees can
                                                                            access the HOTLINE twenty-four hours a day by calling Amtrak
 Total Open Cases as of 9/30/05                                       378
                                                                            Telephone System number 728-3065 in Philadelphia and the toll
 Closed Cases                                                         134   free number (800) 468-5469 if outside Philadelphia. During
 Opened Cases                                                          75   working hours from 9:00 a.m. to 4:30 p.m., OIG staff answers
 Total Ongoing Cases as of 3/31/06                                    319   the callers on the HOTLINE system. During other hours or
                                                                            during those occasions when staff are away from the office,
                                                                            callers can leave a message on the HOTLINE answering
                                                                            machine. In addition, people can write in confidentially to P.O.
CASE HANDLING                                                               Box 76654, Washington, DC 20013.

The OIG receives allegations from various sources, including                The OIG received seven telephonic HOTLINE complaints
employees, confidential informants, Congressional sources,                  during this reporting period.
federal agencies, and third parties. Presently, we are handling
319 investigations; in the last six months, we opened 75 new
cases and closed 134.                                                        HOTLINE STATISTICS
As set forth in the chart below, entitled “Sources of Allegations,”          10/1/05 – 3/31/06                                        Total
employees, anonymous and confidential source referrals
accounted for about 65 percent of the allegations during this                Hotline Complaints Received                                  7
reporting period, with employees being the source of 36 of the
75 allegations or 48 percent. All allegations are reviewed,                  Sources of Hotline Complaints
screened and resources are allocated based upon, among other
                                                                             Anonymous Source                                             3
things, the seriousness of the allegations and potential harm to
                                                                             Private Citizen                                              3
Amtrak or the public.
                                                                             Confidential Source                                          1

                                                                             Classification of Complaints
 SOURCES OF ALLEGATIONS                                                      Fraud                                                        2
 10/1/05 – 3/31/06                                                           Theft/Embezzlement                                           3
                                                                             Non-criminal – Other                                         1
                                                Private Citizen 3
                                                                             Criminal – Other                                             1
                                                Referred by Audit 1
                                                                             Complaints Referred To:
                                                Referred by
                                                Other Amtrak Dept. 1
                                                                             OI Field Offices                                             3
                                                Referred by Fed/Local Law
                                                Enforcement 4                Revenue Protection Unit                                      2
                                                                             Customer Relations                                           1
                                                Referred by Other OIG 3
                                                                             Audit                                                        1
                                                Hotline 2
                                                Other 1



                                         Amtrak Employee
                                                                            SIGNIFICANT INVESTIGATIONS
      Confidential                             36
     Informant 10                                                           Fraud takes on many forms and can be committed through many
                     Anonymous                                              methods, including mail, wire, phone and the Internet.
                     Source 13
                                                                            Organizations that fail to implement measures to prevent and
                                  Former Amtrak Employee 1                  detect internal fraud assume significant risk. As a result, the
                                                                            OIG spends considerable time and effort towards identifying
                                                                            and addressing the many forms of fraud. Illustrative of such
                                                                            investigations are those mentioned below.
10    Office of Investigations
Mail Fraud                                                                vehicle without authorization for commuting purposes for
                                                                          approximately one year. The employee was counseled and
A station caretaker contracted to maintain the Amtrak Station at          instructed to repay Amtrak $800 in restitution.
Plattsburgh, New York pled guilty to submitting invoices for
time not worked. As a result of an OIG investigation and subse-
quent findings, the former contractor was prosecuted by the           FUNDS RECOVERED OR
United States Attorney’s Office for the Northern District of New
York for one-count of felony mail fraud. The defendant over-          DISCONTINUED
charged Amtrak for maintenance activities, which were never           Although not always fraudulent in nature, often an OIG investi-
performed, and admitted that the over-billing took place for a        gation will lead to the recovery or discontinuance of monies
period of four years defrauding Amtrak of $71,555.25. All             disbursed by Amtrak due to oversight, abuse or misuse of funds
invoices were transmitted for payment through the United States       as detailed below.
                                                                      ■
mail. In addition to six (6) months house arrest, and three (3)
                                                                          The OIG investigated the circumstances surrounding a
years probation, the former contractor was ordered to make full
                                                                          marketing firm from Mississippi receiving a no bid contract
restitution to Amtrak.
                                                                          from Amtrak to market the long-distance train, The Crescent.
Health Insurance Fraud Case                                               Pursuant to this investigation, we examined billings to
                                                                          Amtrak by the firm and discovered a suspect payment to the
The OIG investigated an Indianapolis physician for violation of           firm in the amount of $32,319. As a result of the OI investi-
the Federal False Claims Act, 31 U. S. C. Section 3729 et. seq.           gation, the firm acknowledged the unearned payment and
The fraud resulted from a scheme by the physician to bill                 repaid Amtrak the monies in an out-of-court settlement.
Amtrak, through its carrier United Health Care, for procedures
which he had not performed. Amtrak received $33,719.96 in             ■   The OIG investigated the purpose of Amtrak making a
restitution from the physician as the result of a Settlement              $200,000 annual donation to the University City District
Agreement executed by the Indianapolis United States                      (UCD), a non-profit special services district in Philadelphia,
Attorney’s Office for the Southern District of Indiana.                   Pennsylvania, which encompasses 30th Street Station.
                                                                          Amtrak was classified as a “Platinum Ambassador,” meaning
Fraudulent Misuse of Company Vehicle or Fuel Credit                       they were in the top category of donators along with nine (9)
Cards                                                                     other entities. Amtrak had contributed $1,400,000 to the
In conjunction with the use and issuance of company vehicles,             UCD since 1997. The payments were processed through four
Amtrak also issues fuel credit cards to be used for the sole              payment requests of $50,000 each quarter. As a result of the
purpose of purchasing fuel for Amtrak vehicles. While there are           investigation, the Amtrak President, who was unaware of the
established corporate procedures for the management and                   payments, ordered the donations to cease.
control of both corporate vehicles and fuel credit cards, the abuse   Investigations begun in prior reporting periods that have had
of both continue to be reported and substantiated by the OIG.         some significant progress or changes are detailed below.
The following reflect some of our investigations in this area:
                                                                      Chicago-based Lead Service Attendant’s (LSA)
■   The OIG conducted a joint investigation with the General
    Services Administration (GSA) OIG into a GSA credit card          The OIG has continued its activities regarding fraud and abuse in
    fraud scheme being perpetrated in the New Jersey area. A          connection with cash handling. Since the previous reporting
    Gas Station Service Attendant was double swiping GSA              period, monies totaling several thousand dollars were recovered
    credit cards assigned to Amtrak vehicles, resulting in double     from four Chicago-based LSA’s that were terminated after
    or over-billing. As a result, the Attendant was able to person-   failing to remit all of their on board sales to Amtrak. Amtrak
    ally profit from the extra charge made against the Amtrak         withheld vacation pay to the four employees, to recover some of
    issued GSA credit card. With the assistance of the United         the monies due to Amtrak.
    States Attorney’s office for the Northern District of New
    Jersey, the perpetrator was arrested and charged with theft of
    Federal funds.                                                    EFFICIENCY AND EFFECTIVENESS
                                                                      In addition to detecting and deterring fraud, waste, abuse and
■   Based on an allegation received by the OIG, the subsequent
                                                                      wrong doing in Amtrak’s programs and operations, OIG investi-
    investigation revealed that a Senior Director in the
                                                                      gations also provide information and recommendations to
    Engineering Department was using a company assigned

                                                                                                           Office of Investigations   11
    CLASSIFICATION OF CASES                                                                                PROSECUTIVE REFERRALS
    OPENED DURING THIS PERIOD                                                                              10/1/05 – 3/31/06
    10/1/05 – 3/31/06                                                                                      Referrals                U.S. Attorney       Local/State            Total
    Type                                                                                 Number            Criminal Cases
    Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                                                                                                           Indictments                     3                  0                  3
    Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                                                                                                           Convictions/Pleas               1                  0                  1
    Kickbacks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                                                                                                           Pending*                        7                  0                  7
    False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                           Declinations                    2                  0                  2
    False Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                           Resolved                        4                  0                  4
    False T&A Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                                                                                                           TOTAL                          17                  0                 17
    Other – Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6    Civil Cases
    Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6          Suits Filed                     0                  0                  0
    Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2            Settled                         1                  0                  1
    Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1         Pending                         1                  0                  1
    Administrative Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1               TOTAL                           2                  0                  2
    Other – Non-criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6             Total Civil and Criminal                                             19
    TOTAL                                                                                          75      *Some of these will be reflected under pending civil cases because these
                                                                                                           matters are being handled by the United States Attorney’s office in parallel
                                                                                                           proceedings. In cases where there have been convictions or pleas, we may be
                                                                                                           awaiting sentencing, restitution, or other resolutions.
company employees and officials towards improving efficiency,
effectiveness and adaptability. During this reporting period,
OIG investigations have led to recommendations regarding
quality improvement which have been implemented by manage-                                                REVENUE PROTECTION EFFORTS
ment. Examples of these efforts are detailed below.                                                       The Revenue Protection Unit (RPU) provides critical guidance
■     The OIG conducted an investigation into a Contractor providing                                      and support in the strengthening of management accountabilities
      entertainment in the way of food and beverages in excess of                                         and responsibilities as well as internal controls.
      approximately $10,000 over a two (2) year period to Amtrak                                          Food & Beverage Reviews
      Procurement and Mechanical Management employees. As a
      result of the investigation, the employees directly affected were                                   Over the last few reporting periods, circumstances and statistics
      disciplined and, although there is an existing policy in place, the                                 have been provided indicating misappropriations in the area of
      Chief Mechanical Officer reiterated the policy to his staff.                                        food service by Lead Service Attendants (LSAs). During this
                                                                                                          reporting period and in conjunction with these previously
■     The OIG received information that an Amtrak manager                                                 reported findings, RPU focused on Boston management super-
      authorized and submitted payment to Amtrak for the purchase                                         vision and accountabilities in this area. Our findings indicated
      and consumption of alcoholic beverages by Amtrak                                                    several consistent failures by management in their supervision
      employees in recognition of perfect attendance and employ-                                          of and accountability for LSA’s. As a result of the review and
      ment anniversaries. Through the subsequent investigation it                                         subsequent administrative referral, four (4) management staff
      was determined that there were excessive expenditures for                                           changes were instituted and management has adopted several of
      these celebrations, both in food and alcoholic beverages. In                                        OIG’s recommendations.
      addition to the manager received counseling for his actions,
      and as a result of OIG recommendations, all further employee
      recognition events that include alcohol or being held off
      Amtrak property have been eliminated.

12        Office of Investigations
                                         Inspections and Evaluations
SIGNIFICANT INSPECTIONS &                                                  train miles and the average OTP of Acela trains. This rela-
                                                                           tionship has helped Amtrak identify the delay minute goals
EVALUATIONS                                                                that must be achieved for Amtrak to reach its 90% OTP goal
Acela Service – OIG Continues its Oversight Efforts                        for Acela service. Subsequent to the presentation of our find-
                                                                           ings and recommendations, Acela OTP has improved
The Acela high-speed trains generate approximately one quarter             significantly.
of Amtrak’s ticket revenue, and Acela operations have a signifi-
cant impact on Amtrak’s financial goals and objectives. As a           ■   Follow-up to Acela Quality Assurance Evaluation
result, the OIG remains involved with the Acela Executive                  In August 2004, we issued report #E-04-03 on the Acela
Oversight Committee and has continued to examine critical                  Quality Assurance Program. This report was an overall posi-
areas of the Acela program. During this reporting period, we               tive report on the state of the then-existing program.
conducted reviews on the transition of contracted maintenance              However, we expressed concern that the program might
services from the manufacturer to Amtrak; we also reviewed                 degrade during the transition between the manufacturers’
Acela on-time performance (OTP) and the maintenance quality                consortium, NEC MSC, and Amtrak, and made several
assurance program. A summary of the work performed in these                recommendations to prevent this from occurring.
areas follows:                                                             In the fall of 2005, we conducted a follow-up review to see if
■   Transfer of Maintenance Responsibility from the                        actions in response to our recommendations had been accom-
    Manufacturer                                                           plished. We found little to no progress had been achieved.
    With the responsibility for maintenance of the trainsets transi-       We reported our follow-up findings to the Chief Operating
    tioning from the manufacturer’s consortium to Amtrak on                Officer and will follow-up on this area again in early FY
    October 1, 2006, the OIG is closely monitoring the transition          2007.
    to highlight potential problem areas and make recommenda-          Amtrak Mechanical Operations
    tions to help achieve the smooth and safe transition of train
    set maintenance from the manufacturers to Amtrak. We are           In September 2005, we issued report E-05-04, which resulted from
    providing feedback to the Senior Vice President of                 a year-long system-wide review of Amtrak’s Mechanical
    Operations on areas we feel are at risk so that actions can be     Maintenance Operations. In this report, we found that Amtrak’s
    taken by management now to help prevent problems in the            maintenance operations were being performed similarly to the
    future.                                                            way other major railroads in North America did maintenance over
                                                                       20 years ago - mainly preventative maintenance inspections and
■   Acela Express On-Time Performance                                  services conducted at mostly time-based intervals, augmented by a
    The On-Time Performance (OTP) of Amtrak’s Acela trains             high number of reactionary, unscheduled, repairs.
    fell to historically low levels in FY 04 and FY 05. The poor
    OTP was adversely impacting the financial performance of           We recommended that Amtrak adopt a more modern mainte-
    the Acela service, since the customer base for Acela is            nance philosophy based on Reliability-Centered Maintenance
    comprised primarily of business travelers with time-sensitive      (RCM). An RCM-based program requires that maintenance
    travel plans.                                                      activities be supported by sound technical and economic justifi-
                                                                       cations.
    The OIG evaluated past Acela operating performance to help
    understand the cause of poor OTP and to develop a set of           Our report discussed specific actions that Amtrak should take to
    recommendations on how to improve it. The evaluation               transition to RCM. It was well received by Amtrak Management
    developed five findings related to Acela OTP and offered           and we continue to work with the Mechanical Department to
    seven recommendations for improvement. The findings                help them implement our recommendations.
    helped to dispel popular, but often unfounded, perceptions
                                                                       Implementation of Reliability-Centered Maintenance
    about the primary cause of late trains and to provide the quan-
    titative data to help identify the proper actions required to      To assist the Mechanical Department implement Reliability-
    reduce train delays and improve OTP.                               Centered Maintenance, we engaged a consulting firm,
                                                                       T-solutions, who facilitated the implementation of Reliability-
    The evaluation recommended specific actions that Amtrak’s
                                                                       Centered Maintenance (RCM) at both the U.S. Navy and the
    line departments should take to reduce Acela delays and
                                                                       U.S. Coast Guard. In both of these organizations, the implemen-
    improve its OTP. The evaluation determined that there is a
                                                                       tation of RCM resulted in significant improvements in
    direct correlation between delay minutes per ten thousand

                                                                                                        Inspections and Evaluations   13
equipment reliability, while at the same time significantly            ■   Reconcile equipment requirements to equipment availability,
reducing maintenance costs. The consultants are currently
                                                                       ■   Develop a set of metrics that measure fleet utilization rates,
analyzing the maintenance history of the Acela high-speed train-
sets with the intent to begin implementation of new practices in       ■   Compare Amtrak’s fleet utilization rates to industry standards
this area first. Fully implementing RCM throughout Amtrak will             and recommend areas for improvement,
be a multi-year effort. The OIG will remain engaged to facilitate
this effort through at least the rest of this fiscal year.             ■   Assess how well Amtrak implements its equipment plan.

Amtrak Mechanical Department Facility Rationalization                  The OIG facilitated the Thomas Group’s work within the
                                                                       company by identifying Amtrak’s equipment planning stake-
One of the recommendations in report E-05-04 was that Amtrak           holders, coordinating meetings, specifying critical data
“evaluate the potential benefits of consolidating maintenance          requirements and sources, and identifying Amtrak’s operating
operations into fewer locations.” The Chairman of Amtrak’s             constraints. A full report on this effort will be issued during the
Board of Directors requested that the OIG help facilitate the          next reporting period.
implementation of this recommendation. Therefore, we engaged
the services of the Thomas Group, an international consulting          IT Project Approval Process – Improvements made, but
firm with expertise in a variety of industrial operations,             implementation of “best practices” from leading organiza-
including railroad maintenance. A team composed of both                tions can lead to further improvements
Thomas Group and IG staff evaluators visited all major Amtrak          Report E-06-01 – Issued March 31, 2006
maintenance activities, including the three major maintenance          During this reporting period, the OIG completed our evaluation
back shops and the eleven major mechanical facilities across the       of Amtrak’s Information Technology (IT) project approval
United States. The team gathered data on characteristics, condi-       process. In this report, E-06-01, the OIG recognized improve-
tion and utilization of the various facilities, speaking with local    ments in the IT Project Approval process between FY05 and
management and observing operations.                                   FY06, including the institution of an IT Working Group, better
The survey found significant excess capacity at Amtrak’s main-         use of criteria to “value” and “score” projects; and the selection
tenance facilities, resulting in inefficiencies and excess costs and   of the projects based on information prepared by the IT working
presenting an opportunity for significant potential savings. To        group. While these are noteworthy improvements, further
achieve these savings, the OIG recommended actions included            improvement is possible.
consolidating back shops, consolidating preventative mainte-           As part of this evaluation, we compared Amtrak’s process to the
nance and repair activities at Centers of Excellence for different     best practices of leading organizations and identified opportuni-
equipment types, and combining or outsourcing certain compo-           ties for improvement. Our recommendations included adopting
nent repair operations. The estimated potential saving, after          an organizational structure that provides for the inclusion of the
accomplishing these actions, is in excess of $20 million annu-         CIO in the development and discussion of strategic plans and
ally. The preliminary findings have been briefed to the Amtrak         initiatives; the integration of an IT strategy the supports the
Board of Directors, and the OIG is developing recommendations          corporation’s business strategy; and increased project controls to
for Amtrak to implement and execute these recommendations.             promote consistency in decision-making.
Amtrak Fleet Planning Process                                          Employee Leave of Absence Initiative – OIG Inter-depart-
Another of the recommendations contained in Report E-05-04             ment team working with Amtrak Human Resources
was that Amtrak “develop, and keep current, a comprehensive            In September 2004, the OIG issued an evaluation report on
fleet plan (that includes both locomotives and cars) to be used to     Employee Leaves of Absence (E-04-04). The report found that
forecast and prioritize mechanical capital expenditures.” The          Amtrak was not adequately tracking employees on leave of
Chairman of Amtrak’s Board of Directors requested the OIG              absence and therefore Amtrak could not ensure that benefits
facilitate the implementation of this recommendation.                  were only being paid to eligible personnel.
Therefore, the OIG engaged the Thomas Group to review
Amtrak’s Fleet Planning Process. Specifically, the Thomas              In August 2005, after realizing that the situation had not
Group was asked to:                                                    improved significantly, the CEO directed that the Human
                                                                       Resources department create an Employee Leave of Absence
■    Document Amtrak’s current fleet allocation process,               Initiative and take necessary actions to ensure employees on
■    Recommend how to improve this process,                            leave of absence are tracked and their benefit eligibility is prop-

14     Inspections and Evaluations
erly managed. On average, 1200 -1300 employees are either on          that one of the complaints warranted a formal investigation. The
a medical leave of absence or personal leave of absence each          results of this investigation will be issued during the next
month. This monthly rolling number requires a dedicated data-         reporting period.
base to track and monitor employee activity, particularly if
employees are in compliance with providing the required               Conductor and LSA Non-Remittance – OIG Continuing
medical documentation. An OIG inter-department team of                Involvement
Inspections and Evaluations (I&E) and Audit personnel has been        Amtrak employees handle approximately $100 million annually
monitoring and advising the Human Resources team tasked with          in on-board ticket and food and beverage sales. The OIG previ-
this initiative. AT is currently testing the database with the goal   ously issued two evaluation reports where we noted substantial
of final production in the next quarter.                              evidence of employee theft and made recommendations to
                                                                      improve the oversight and control of cash generated from on-
Harassment and Intimidation Complaint – Formal
                                                                      board sales.
Investigation Initiated
                                                                      The Inspections and Evaluations staff works closely with the
Amtrak’s Statement of Policy Against Harassment and
                                                                      OIG Revenue Protection Unit, whose work is highlighted earlier
Intimidation states, in part, “Amtrak will, under no circum-
                                                                      in this report. Also, the I&E staff continues to interact with
stances, tolerate harassing or intimidating conduct by any
                                                                      Amtrak’s Customer Services department to advise on remittance
employee that is calculated to discourage or prevent any indi-
                                                                      policy and procedures as well as process improvements for safe-
vidual from receiving proper medical treatment or from
                                                                      guarding OBS revenues.
reporting an accident, incident, injury or illness.” This
Statement of Policy conforms to Federal Railroad                      Since October 2002, more than 175 conductors and 150 On-
Administration Regulations 49 CFR Part 225.33                         Board Service (OBS) employees have either resigned or been
                                                                      terminated from the company for misappropriation of revenues,
During this reporting period, the OIG conducted four inquiries
                                                                      in part as a result of OIG’s efforts in this area.
into employee complaints of Harassment and Intimidation.
After an initial review of the four complaints, it was determined




                                                                                                      Inspections and Evaluations   15
Counter-Terrorism and Intelligence
SIGNIFICANT COUNTER-TERRORISM                                           Vulnerability Assessments

AND INTELLIGENCE EFFORTS                                                During the last two quarters, the OIG has retained the services of
                                                                        two highly regarded assessment and evaluation organizations
The OIG Counter-Terrorism and Intelligence unit is responsible          that have been performing in-depth reviews of a major Amtrak
for oversight of Amtrak’s rail security, emergency preparedness,        station and adjacent infrastructure. Through these reviews, we
and related counter-terrorism and intelligence efforts. Working         hope to ensure that Amtrak has the best possible information
with Amtrak’s Vice President for Security and other OIG secu-           from which it can improve upon its security investments. The
rity oversight teams, this unit works to increase awareness about       OIG also intends to expand its review and evaluation program to
the possibilities of a terrorist attack against railroad passenger      nine additional urban stations during FY 2007 and 2008.
services and the critical importance of security preparedness.
                                                                        Concurrent with the OIG’s efforts, the Vice President for
The OIG and Amtrak’s Security Department also continue to               Security at Amtrak has used a DHS, Office of Domestic
work with officials from the Department of Homeland Security            Preparedness grant to conduct a more systemic Vulnerability
(DHS) and with other Federal departments and agencies to                Assessment, for Amtrak’s Northeast Corridor assets and for an
upgrade and improve security measures at selected locations.            Amtrak facility in the Midwest. The OIG and RAND
These joint efforts include exercising preventive measures, and         Corporation had recommended that the company undertake
conducting joint operations with appropriate law enforcement.           these reviews following its 2004 security evaluations. The
Given the highly confidential nature of this unit, its activities and   Vulnerability Assessment report is scheduled to be delivered to
progress is generally not publicized. The OIG is willing to discuss     Amtrak in May 2006. From the more complete Vulnerability
projects and highlights with Congressional members and staff.           Assessment report, Amtrak will be able to revise its security
                                                                        plans and make better decisions for spending security dollars.




Auto Train Station | Lorton, VA




16     Counter-Terrorism and Intelligence
                                                                     Other OIG Activities
COORDINATION WITH INDEPENDENT                                         visit to Aetna, United Healthcare, Cigna, and Blue Cross Blue
                                                                      Shield. During the site visits, the OIG plans to inquire about the
PUBLIC ACCOUNTANTS                                                    potential vendors’ internal control processes for safeguarding
Section 805 of the Rail Passenger Service Act of 1970 requires        Amtrak’s interests with respect to healthcare claims processing.
Amtrak to have its financial statements audited annually in           We are continuing to work with management to assess actions
accordance with the generally accepted auditing standards, and        taken or planned for implementing recommendations stemming
to report the audit findings to Congress in Amtrak’s annual           from a recent OIG sponsored audit of Amtrak’s On-Duty Injury
report. Amtrak has been audited annually since 1971.                  plan administered by Continuum. We are also preparing for an
At the request of KPMG, the OIG conducted a review of fiscal          audit of commonly abused medical billing codes to identify
year 2005 labor charges for both the Engineering and                  abusive or fraudulent billings. Current plans also include a
Mechanical departments. in order to determine the amounts             review of the new eligibility process implemented by manage-
adjusted and assess the appropriateness of the labor cost adjust-     ment to determine if accurate information is being provided to
ments. The results of our review indicated a normal trend of a        various Third Party Administrators that provide healthcare
small number of adjustments and a relatively low dollar value for     services to agreement covered employees. Amtrak incurs over
each date of adjustment. A few instances were observed that           $200 million in healthcare costs per year for its two self-insured
exceeded the normal trend, but the dollar value of these adjust-      healthcare plans for management and agreement-covered
ments were not significant. Accordingly, we concluded that the        employees. These plans are managed through a number of third
risk of inappropriate changes was very low and informed KPMG          party vendors and cover over 60,000 members including
on the results of our review.                                         employees and dependents.

The OIG is continuing to follow-up on progress being made by
management to implement corrective actions in response to the         TEAMMATE IMPLEMENTATION
Management Letters issued by the external auditors in connec-         OIG Secure Subnet and TeamMate Implementation
tion with the annual audits of Amtrak’s financial statements. As      Project Update
indicated in this report earlier, we issued a status report in
October 2005 which noted that Amtrak Finance has satisfacto-          As previously reported, Amtrak OIG selected TeamMate appli-
rily addressed a number of internal control weaknesses cited by       cation to automate various audit processes. In order to protect
the external auditors.                                                the confidentiality and chain of custody of OIG information, a
                                                                      secure subnet with internal firewalls was built to host the
During the next semiannual period, we plan to work with the           TeamMate application and related databases.
external auditors and Amtrak management on issues related to
prior audits and the financial statement audit for FY 06.             During this semiannual period, we completed the installation of
                                                                      technical infrastructure and successfully tested the OIG secure
                                                                      subnet proof of concept from our Washington office. After
SELF-INSURED HEALTH CARE PLANS                                        conducting an end-to-end testing from all our offices and
Amtrak is currently in the process of evaluating potential health-    completing security controls review, we plan to finalize the
care service providers for the management plan. The OIG is            TeamMate protocol/library, update our Audit Procedures
participating in this process with Human Resources and others to      Manual, train our audit staff, and roll out the application in a
evaluate the vendor proposals and conduct site visits. As part of     phased manner. We plan to implement the TeamMate applica-
this project, OIG staff will join other Amtrak personnel on a site    tion in 2006.




                                                                                                                   Title of Section   17
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                                Appendices
Appendix 1
 INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
 10/1/05 – 3/31/06
                                                   Number   Questioned Costs   Unsupported Costs
 A. For which no management decision
    has been made by the commencement
    of the reporting period.                         2          $903,383            $277,348
 B. Reports issued during the
    reporting period.                               11        $1,059,511                  $0

 Subtotals (A + B)                                  13        $1,962,894            $277,348

 LESS
 C. For which a management decision
    was made during the reporting period.            8
     (i) dollar value of recommendations
         that were agreed to by management.                     $738,058                  $0
     (ii) dollar value of recommendations
          that were not agreed to by management.

 D. For which no management decision
    has been made by the end of the
    reporting period.                                5        $1,224,836            $277,348




20   Appendix 1
                                                          Appendix 2
INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH FUNDS TO BE PUT TO
BETTER USE
10/1/05 – 3/31/06
                                                 Number        Dollar Value
A. For which no management decision
   has been made by the commencement
   of the reporting period.                        1             $21,200
B. Reports issued during the
   reporting period.                               1             $27,068

Subtotals (A+B)                                    2             $48,268

LESS
C. For which a management decision
   was made during the reporting period.           1
   (i) dollar value of recommendations
       that were agreed to by management.                        $11,200
   (ii) dollar value of recommendations
        that were not agreed to by management.                   $10,000

D. For which no management decision
   has been made by the end of the
   reporting period.                               1              $27,068




                                                                 Appendix 2   21
Appendix 3
 OFFICE OF THE INSPECTOR GENERAL DETAILED LISTING
 OF ALL ISSUED AUDIT REPORTS
 10/1/05 – 3/31/06
 Date                Report                                                   Questioned   Unsupported   Funds to be Put
 Issued              Number     Report Title                                       Costs         Costs     to Better Use
 02/23/2006          104-2004   eTrax Application Review                        $39,943            $0                $0

 10/28/2005          108-2004   KPMG Management Letter Compliance                    $0            $0                $0

 01/06/2006          205-2005   Pirelli Construction Services, Inc             $201,401            $0                $0

 03/28/2006          208-2006   Environmental Audit                                  $0            $0                $0

 10/27/2005          210-2005   Henkles & McCoy - Ivy City Utililties                $0            $0                $0

 01/05/2006          211-2005   Parsons - Mod 12                                $29,677            $0                $0

 03/13/2006          217-2004   ABB-AEM-7 Transformer R&R                      $187,441            $0                $0

 01/05/2006          219-2005   Mass Transit Products Termination               $63,184            $0                $0

 11/10/2005          220-2005   Albany Commissary Closing                            $0            $0                $0

 10/25/2005          221-2005   Electronic Exchange Corporation                      $0            $0                $0

 03/08/2006          222-2005   CSX Billing Under High Speed Rail Agreement     $40,770            $0                $0

 11/15/2005          223-2004   Smart Associates                                $12,825            $0                $0

 01/15/2006          223-2005   Observations of FY05 Annual M/W Inventory            $0            $0                $0

 02/10/2006          224-2005   W.A. Chester, L.L.C                             $20,505            $0                $0

 02/06/2006          225-2005   Gate Gourmet-Cost and Rate Audit                     $0            $0                $0

 02/13/2006          302-2005   Amtrak Equipment Accountability                      $0            $0                $0

 03/27/2006          401-2005   CPR (SOO) OTP only (2001)                      $111,004            $0                $0

 03/30/2006          410-2003   METRA/CUSCO Lease                               $23,008            $0           $27,068

 02/06/2006          501-2006   Sacramento, CA EEV Review                            $0            $0                $0

 12/21/2005          502-2005   Kiewit Pacific Company -                       $329,753            $0                $0
                                Oakland Maintenance Facility

 12/15/2005          502-2006   Martinez, CA EEV Review                              $0            $0                $0

 Total                                                                        $1,059,511           $0           $27,068




22   Appendix 3
                                            Appendix 4
OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF REPORTS TO PRESIDENT OF AMTRAK
CONCERNING INFORMATION OR ASSISTANCE
UNREASONABLY REFUSED OR NOT PROVIDED
10/1/05 – 3/31/06

NONE




                                                  Appendix 4   23
Appendix 5
 OFFICE OF THE INSPECTOR GENERAL
 REVIEW OF LEGISLATION AND REGULATIONS
 10/1/05 – 3/31/06
 Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall …review existing and proposed
 legislation and regulations relating to programs and operations of such establishment and to make recommendations in the semiannual reports
 … concerning the impact of such legislation or regulations on the economy and efficiency in the administration of such programs and opera-
 tions administered or financed by such establishment or the prevention and detection of fraud and abuse in such programs and operations.
 The Office of Inspector General has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG to review
 and comment on the company’s annual legislative program and other legislative and regulatory concerns of the company. Existing legislation
 and regulations are reviewed as necessary, as a part of every audit and investigation.
 The OIG has also submitted legislative recommendations to oversight and appropriating committees seeking line item funding and several
 other legislative changes that will strengthen OIG independence and effectiveness.




24   Appendix 5
                                                                                                     Appendix 6
GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms we use in reporting audit statistics are defined below:
Questioned Cost                      A cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an alleged
                                     violation of Amtrak’s corporate policy or procedure.
Unsupported Cost                     A cost that is not supported by adequate documentation at the time of the audit.
Funds To Be Put To Better Use        Funds identified in an audit that could be used more effectively by taking greater efficiency measures.
Management Decision                  Management’s evaluation of our audit finding and its final decision concerning agreement or non-
                                     agreement with our recommendation.

Certain abbreviations used in the text are defined below:
ACSES      Advanced Civil Speed Enforcement System                      IG            Inspector General
CEO        Chief Executive Officer                                      IT            Information Technology
CFR        Code of Federal Regulation                                   LSA           Lead Service Attendant
CIO        Chief Information Officer                                    METRA         Northern Illinois Regional Commuter Railroad
CPR        Canadian Pacific Railway                                     MOU           Memorandum of Understanding
CSXT       CSX Corporation                                              NEC           Northeast Corridor
DELDOT Delaware Department of Transportation                            NECMSC Northeast Corridor Management Services Company
DHS        Department of Homeland Security                              OBS           On Board Services
EEV        Emergency Exchange Voucher                                   OIG           Office of Inspector General
eTrax      Electronic Transaction Express Software System               OTP           On-Time Performance
FAR        Federal Acquisition Register                                 RCM           Reliability Centered Management
FY         Fiscal Year                                                  RPU           Revenue Protection Unit
GAAP       Generally Accepted Accounting Principles                     UCD           University City District
G&A        General and Administrative                                   YTD           Year-to-Date
GAO        Government Accountability Office
GSA        General Services Administration




                                                                                                                              Appendix 6       25
Reporting Requirements Index
 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988
 Topic                              Reporting Requirements                                                       Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                          24
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                          5-8, 10-16
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems           5-8, 10-16
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                        8-9
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                    12
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                              23
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                  22
 Section 5(a)(7)                    Summary of Significant Reports                                          5-8, 10-16
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                            20
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use             21
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                    8
 Section 5(a)(11)                   Significant Revised Management Decisions                                        8
 Section 5(a)(12)                   Significant Management Decisions with Which the IG is in Disagreement           8




26   Reporting Requirements Index
Reporting Requirements Index
 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988
 Topic                              Reporting Requirements                                                       Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                          24
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                          5-8, 10-16
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems           5-8, 10-16
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                        8-9
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                    12
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                              23
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                  22
 Section 5(a)(7)                    Summary of Significant Reports                                          5-8, 10-16
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                            20
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use             21
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                    8
 Section 5(a)(11)                   Significant Revised Management Decisions                                        8
 Section 5(a)(12)                   Significant Management Decisions with Which the IG is in Disagreement           8




26   Reporting Requirements Index
Stop Fraud, Waste, Mismanagement, and Abuse

Who pays? You pay. Act like it’s your money… it is!
Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak.
Amtrak’s Office of Inspector General has a toll free hotline number for you to call. You can also write to us.
We will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from reprisal by your employer.

Call the hotline:
Nationwide             (800) 468-5469
Philadelphia           (215) 349-3065
                       ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654




National Railroad Passenger Corporation
Office of Inspector General
(800) 468-5469
       National Railroad Passenger Corporation
                 Office of the Inspector General
10 G Street, NE, Suite 3W-300, NE, Washington, DC 20002-4285



         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
